                                                                      2000.04 REV-2 CHG-16


       Further, the issuer is required to submit with its parent’s consolidated audited
       financial statements an adjusted net worth calculation on the parent. The parent’s
       net worth, after adjustments for unacceptable assets, is required to be at least 110
       percent (120 percent for issuers approved to issue manufactured housing or
       multifamily pools) of the required net worth of the issuer. That organization’s
       auditor, in accordance with this audit guide, must audit the parent’s audited
       financial statement and adjusted net worth calculations. The parent must also
       demonstrate in its adjusted net worth calculation that it meets the 110 percent (120
       percent for issuers approved to issue manufactured housing or multifamily pools)
       requirement noted above.

       The required format for presenting the “presentation of adjusted net worth
       calculation for issuer’s parent” is provided in attachment E of this chapter.

   3. For issuers that are Federal- or State-regulated institutions, such as those under the
      supervision of the Federal Deposit Insurance Corporation, Office of the Comptroller
      of the Currency, and Office of Thrift Supervision, which became a part of the
      Comptroller of the Currency on July 21, 2011, Ginnie Mae will accept audited
      financial statements of the issuer’s parent, so long as the issuer makes up 40 percent
      or more of the parent’s equity and there is no more than one bank holding company
      covered in the audit. In such instances and in addition to the audited financial
      statement of the issuer’s parent, the issuer must submit its unaudited regulatory
      report (call report or OTS (Office of Thrift Supervision) report).

       Although Ginnie Mae may accept alternative audited financial statements, all other
       required reports (internal controls, compliance with specific requirements, adjusted
       net worth calculation, capital, liquidity, and insurance requirements) must be
       prepared by a certified public accounting firm that is an independent auditor
       (auditor) exclusively for the issuer.

       A sample auditor’s report on the consolidating balance sheet and operating
       statement is included as attachment I to this chapter.

C. Submission of Reports. The issuer must submit the audited financial statements and
   auditor’s reports, independent of whether the issuer had securities or commitment
   authority outstanding. Reports must be submitted within 90 days of the end of the
   issuer’s fiscal year to Ginnie Mae’s review agent. Instructions for submitting
   electronically can be found in Appendix VI-20 of the Ginnie Mae MBS Guide.

D. Single Auditor Approach. In many instances, it may be to the advantage of the
   custodian, the issuer, or both to hire a certified public accounting firm (auditor) to
   conduct a review of the mortgage documents that are held by a particular custodian
   which has responsibility for several issuers’ documents, rather than having each issuer
   require that a different auditor review that part of the custodial documents pertaining to
   each issuer’s pools. The single auditor approach may also resolve practical problems
   associated with travel when the issuer, custodian, and auditor are not located near each
   other, thus reducing the cost of compliance while ensuring necessary audit coverage.

                                        6-4
                                                                                      4/2013
